NO. 19-

£33

Sntfje
Supreme Court of tfje fHntteb States?

SuprefHScSUrtTus'
FILED

w»/*4jLM4N4M

24 2019
Lofrceofthecler^

PHILIPPE BUHANNIC,
Petitioner,
v.
NEW YORK APPELLATE DIVISION,
FIRST JUDICIAL DEPARTMENT,
Respondent.

On Petition for an Extraordinary Writ of Mandamus
to the New York Appellate Division, First Judicial Department
PETITION FOR EXTRAORDINARY
WRIT OF MANDAMUS

Philippe Buhannic Petitioner Pro Se
Aventura 318
Route des Creux 100
1936 Verbier Switzerland
(917) 716-3542

k

December 23,2019
SUPREME COURT PRESS

♦

(888) 958-5705

♦

Boston, Massachusetts

RECEIVED
DEC 3 1 2019
OFFICE Of THE CLERK
SUPREME COURT. U.S.

/

w
1

QUESTION PRESENTED
Whether the state appeal courts have the right
based on an obvious prejudice and bias to refuse due
process to a foreign pro se litigant. The denial is so
obvious, persistent and omnipresent in this case, as
well as the corruption, that this court must correct
this quickly to have still a meaningful constitution as
the rights denied to the foreign Pro se litigant are
constitutional in nature: due process, right to appeal,
etc.?

11

\

LIST OF PROCEEDINGS BELOW
Appellate Division of the Supreme Court of New
York, First Department
Index No. 653624/16
Motion No: M-4977, M-4860
Philippe Buhannic and Pa trick Buhannic,
Individually and Derivatively on Behalfof Trading of
Tradingscreen Inc., Plaintiffs-Appellants, v.
Tradingscreen, Inc.; Pierre Schroeder; Piero Grandi;
Frank Placenti; Robert Trudeau; TCVVI, L.P., and
TCVMember Fund, L.P., Defendants-Respondents.
Decision Date: October 30, 2018
Related Proceedings in the
Southern District of New York
Buhannic et al. v. Tradingscreen Inc. et al.
New York Southern District Court
Case No: l:18-cv-05371
Case Opening Date: June 14, 2018
Decision Date: September 27, 2019
Buhannic et al. v. Tradingscreen Inc. et al.
New York Southern District Court
Case No: l:18-cv-05372-ER
Case Opening Date: June 14, 2018
Decision Date: September 27, 2019

Ill

Buhannic v. Friedman
Case No: l:18-cv-05729-RA
Case Opening Date: June 25, 2018
Decision Date: February 7, 2019
Buhannic et al v. Tradingscreen Inc. et al
New York Southern District Court
Case No: l:17-cv-07993-ER
Case Opened: October 17, 2017
Decision Date: July 27, 2018
Buhannic et al v. Tradingscreen Inc. et al.
New York Southern District Court
Case No: l:18-cv-07997-ER
Case Opening Date: August 31, 2018
Decision Date: September 27, 2019
Buhannic v. Tradingscreen Inc.
New York Southern District Court
Case No: l:18-cv-09351-ER
Case Opening Date: October 12, 2018
Decision Date: No Decision

Buhannic v. Tradingscreen, Inc. et al.
New York Southern District Court
Case No: l:18-cv-09447-ER
Case Opening Date: October 16, 2018
Decision Date: September 27, 2019

1

IV

Buhannic v. Tradingscreen, Inc. et al.
New York Southern District Court
Case No: l:18-cv-10170-ER
Case Opening Date: November 1, 2018
Decision Date: September 27, 2019

\

Related Proceedings in the United States Court
of Appeals for the Second Circuit
Buhannic v. Friedman
United States Court of Appeals for the Second Circuit
No. 19-365
Decision Date: August 1, 2019
Buhannic v. Tradingscreen Inc.
United States Court of Appeals for the Second Circuit
No. 19-531
Decision Date: April 23, 2019
Buhannic v. Tradingscreen Inc.
No. 18-2274
United States Court of Appeals for the Second Circuit
Decision Date: October 11, 2019

V

TABLE OF CONTENTS
Page
QUESTION PRESENTED....... ......

1

LIST OF PROCEEDINGS BELOW

11

TABLE OF AUTHORITIES......... .

vm

OPINIONS BELOW......... ...........

1

JURISDICTION...............................

1

CONSTITUTIONAL PROVISIONS

2

STATEMENT OF THE CASE

5

Preliminary Statement.....

5

STATEMENT OF FACTS.....

6

ARGUMENT...........................

8

Due Process Issues at the
New York Appeal Court, First Department.... 8
Point I. Outright Corruption at the Clerk
Office...............'..............................................

8

Point II. The Denial of Due Process Through
Unnecessary Endless Presentation
Rules................................... ........................ .

9

Point III. The Denial of Due Process in the
Oral Arguments’ Session........................... 10
Point IV. The Denial of Due Process by
Refusing Effectively the Right to Appeal . 12
Point V. The Denial of Due Process by
Refusing Information to Pro Se Litigants .. 13
Point VI. A Systematic Ex-Parte Communi­
cation and Collusion Between the

Y

VI

TABLE OF CONTENTS - Continued
Page
Defendants and the Appeal Court as
Demonstrated by the Dan Ramos
Incident Breaches Due Process................ 15
Point VII. Non Application of Notice of
Removal to Federal Court.......................... 17
REASONS FOR GRANTING THE WRIT..........

19

CONCLUSION.............................. ................................ 23
APPENDIX TABLE OF CONTENTS
APPENDIX A
Appellate Division Order Only Infor­
mation Available to Appellant on the Web
as No Service from Appeal Court Was
Made........................................................................ la
Order of the Appellate Division of the Supreme
Court of New York, First Department
(October 30, 2018)................................................. 2a
APPENDIX B
Letter to Head Clerk of New York Appeal
Court, First Department Describing
Corruption Encountered in the Process
of Appealing............................................ ............. 4a
Letter to Head Clerk of New York Appeal
Court, First Department Describing Corrup­
tion Encountered in the Process of Appealing
(February 5, 2019)................................................. 5a

h

Vll

TABLE OF CONTENTS - Continued
Page
APPENDIX C
Motion to Reargue Front New York
Supreme Court as the Case Was Removed
to Federal Court and No Service Was
Made Making the Default Judgement
Illegal in Multiple Ways............ . .■............... 17 a
Motion To Reargue Front New York Supreme
Court as the Case Was Removed To Federal
Court and No Service Was Made Making the
Default Judgement Illegal in Multiple Ways
(June 28, 2018).................................................. 18a
APPENDIX D
Affidavit in Support...................................... 20a
Affidavit in Support
(June 27, 2018)................................................. 21a
APPENDIX E
Notice of Removal to Federal Court........ 24a
Notice of Removal To Federal Court
(May 12, 2018)................................................. 25a
APPENDIX F
Illegal Dismissal of the Appeal for No
Reason but Collusion and Breach in Due
Process Despite Removal and Lack of
Service.............................................................. 32a
Illegal Dismissal of the Appeal for No Reason
but Collusion and Breach in Due Process
Despite Removal and Lack of Service
(February 7, 2019)............................................ 33a

vm
TABLE OF AUTHORITIES
Page
CASES
Mullane v. Central Hanover Bank & Trust Co.
339 U.S. 306 (1950)
Carey v. Piphus,
435 U.S. 247 (1978)
Mathews v. Eldridge,
424 U.S. 319 (1976)
Fuentes v. Shevin,
407 U.S. 67 (1972)
Marshall v. Jerrico, Inc.,
446 U.S. 238 (1980)
Nelson v. Adams,
529 U.S. 460 (2000)
Richards v. Jefferson County,
517 U.S. 793 (1996)
Jones v. Flowers,
547 U.S. 220 (2006)
Goldberg v. Kelly,
397 U.S. 254 (1970)
Armstrong v. Manzo,
380 U.S. 545 (1965)
Robinson v. Hanrahan,
409 U.S. 38 (1974)
Greene v. Lindsey,
456 U.S. 444 (1982)
City of West Covina v. Perkins,
525 U.S. 234 (1999)

IX

TABLE OF AUTHORITIES—Continued
Page
Baldwin v. Hale,
68 U.S. (1 Wall.) 223 (1863)
Anti-Fascist Refugee Committee v. McGrath,
341 U.S. 123 (1951)
Turney v. Ohio,
273 U.S. 510 (1927)
In re Murchison,
349 U.S. 133 (1955)
Schweiker v. McClure,
456 U.S. 188 (1982)
Gibson v. Berryhill,
411 U.S. 564 (1973)
Wong Yang Sung v. McGrath,
339 U.S. 33 (1950)
Withrow v. Larkin,
421 U.S. 35 (1975)
United States v. Morgan,
313 U.S. 409 (1941)
Hortonville Joint School Dist. v. Hortonville
Educ. Ass’n, 426 U.S. 482 (1976)
Arnett v. Kennedy,
416 U.S. 134 (1974)
556 U.S.

No. 08—22, slip op. at 6 (2009)

., No. 08—22, slip op. at 6, quoting
556 U.S.
Turney v. Ohio, 273 U.S. 510, 523 (1927).
556 U.S.

., No. 08-22, slip op. at 6

X

TABLE OF AUTHORITIES—Continued
Page
556 U.S.

., No. 08-22, slip op. at 7, 9.

556 U.S.

., No. 08-22, slip op. at 11

556 U.S.

., No. 08—22, slip op. at 15.

556 U.S.

., No. 08-22, slip op. at 14.

579 U.S.

., No. 15-5040, slip op. at 1 (2016)

Greene v. McElroy,
360 U.S. 474 (1959)
Richardson v. Perales,
402 U.S. 389 (1971)

■N

Lassiter v. Department ofSocial Services,
Gagnon v. Scarpelli, 411 U.S. 778 (1973)
CONSTITUTIONAL PROVISIONS
U.S. Const, amend. V...................... .

2

U.S. Const, amend. XIV, § 1............

2

STATUTES
28 U.S.C. § 1257(a).... ................................
8 DEL. C. § 145...........................................
New York Judge Rulebook.......................
Federal Code of Conduct for U.S. judges

1

1

OPINIONS BELOW
The opinions and actions of the highest state
court, the New York Appeal court, First Department
to review the due process in the petition and is
included below at App.la.

JURISDICTION
This case has clearly breached the rights of Mr.
Buhannic under the 5th and the 14th amendment of the
U.S. Constitution. Mr. Buhannic has fundamentally
been stolen his property of north of 60% of the company
he created through a mixture of outright corruption
in Delaware where the judge was bought out, Collusion
in the Supreme court of New York and New York appeal
court and exposed to a significant discrimination as a
foreign national and Pro se person and massive due
process issues under Delaware, New York but also sadly
the Federal court system in New York in a way that
effectively is breaching his right to be protected by
due process against these acts.
This Petition for Extraordinary Writ of Mandamus
is filed pursuant to Sup. Ct. R. 20.4(a). This Court has
jurisdiction under 28 U.S.C. § 1651.

2

CONSTITUTIONAL PROVISIONS
U.S. Const, amend. V
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a pre­
sentment or indictment of a grand jury, except
in cases arising in the land or naval forces, or in
the militia, when in actual service in time of war
or public danger; nor shall any person be subject
for the same offense to be twice put in jeopardy
of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor
be deprived of life, liberty, or property, without
due process of law; nor shall private property be
taken for public use, without just compensation.
U.S. Const, amend. XIV, § 1
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the state
wherein they reside. No state shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor
shall any state deprive any person of life, liberty,
or property, without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws.

3

RULE 20 STATEMENT
A.

Name and Function of Parties to Whom
Mandamus is Sought to be Directed

' Petitioner seeks mandamus issued to the judges of
the New York Appellate Division, First Department.
B.

Petitioner seek the following relief:

In the New York proceeding given its abdication
to big corrupt law firms interest by the New York
appeal court:
1.

The establishment of a parity between all
parties for indemnification, as the appeal
was obvious and was manipulated by the
NY appeal court, first department in collu­
sion with the Defendants, and treating the
two parties completely unequally for the same
cases, same agreements and same conditions.
This would trigger an immediate reimburse­
ment of the 5 M USD plus of advancement ex­
penses including interests since their due date
at 19% that the Company failed to advance
for three years, despite Mr. Buhannic’s total
compliance with the advancement condi­
tions under Section 4 and that Mr. Buhannic
has incurred and was not reimbursed for
while the other Board members were reim­
bursed illegally.

2.

The recusal of the New York court system
from the case and the start of an in depth
investigation in its practices and a concen-

4

tration of all actions front of the single most
relevant court in Federal court but outside of
the southern district that has demonstrated
a level of inefficiency and collusion unmatched
in modern time with a really independent
judge that can handle a case rapidly.

C.

3.

The cancellation of all the decisions of the
New York appeal court as they were all
obtained through a collusion between the
New York Appeal court and the big corrupt
law firms Weil Gotschal and Morgan Lewis
and as retribution against Mr. Buhannic after
he denounced the corruption at the clerk office
of the court when he could file an appeal.

4.

Any further relief that the Court might
deem appropriate as the Court deems just
and proper like the amount of damages that
should be charged to the Defendants for the
personal moral prejudice created to Mr.
Buhannic over three years as such mistreat­
ment and corruption is not covered by the
law protecting honest jurisdictions from con­
sequences.

Why Petitioners Have Filed for Relief in This Court

Petitioners have sought remedy in the New York
Appellate Division and U.S. Court of Appeals for the
Second Circuit. See List of Proceedings. The only
remaining court of higher authority is the Supreme
Court of the United States.

5

STATEMENT OF THE CASE
Preliminary Statement
This is a straightforward case. Philippe Buhannic
(“Buhannic”) seeks to enforce his constitutional rights
to due process protected by the U.S. Constitution that
have been denied to him in the most horrible manner
by a series of courts whose bias and prejudice is so
deeply rooted in the system, that they have breached
the constitutional right of Mr. Buhannic as a foreign
Pro se litigant as they consider wrongly that the con­
stitution does not protect him.
Worse the actors of this farce feel so certain that
they are unreachable that they are going extremely
far in the illegality and of their manipulative actions,
and fear nothing from a system that they feel they
master and can play against a Pro se litigant with no
resource as the system is more interested in protecting
its own faulty members than achieving justice. This
is the ultimate in bad faith and insulting to intelligence
and the principles of the U.S. Constitution.
It demonstrates that the system allows the actors
to refuse effectively due process by hiding their, some­
times criminal acts, behind the most stupid presenta­
tion reasons, or just to ignore the rules as demonstrated
in examples outlined in this case.
Worse the litigant has also experienced massive
corruption of the system in the benefit of the big
corrupt law firms Morgan Lewis and Weil Gotschal
which have established in the courts, against discreet

6

retribution, a network of dependent employees that
will effectively guide the cases their way.
This case is a terrible eyesore on the U.S. legal
system and demonstrate a total lack of principles and
legal respect by all the actors of the U.S. legal system
from lawyers to judges to clerks.

STATEMENT OF FACTS
From 1999 until his wrongful termination in late
June 2016, in a clear breach of his employment agree­
ment, in a coup organized by the minority Private
Equity shareholder TCV with 18% of the shareholding
to steal the value of the company unduly, Mr. Buhannic
served as the Company’s CEO and Chairman of its
Board for 16 years. This is a company that he created
from scratch making tremendous personal sacrifices
to create the leader in the Fintech space with his
ingenuity, hard work and money.
Thanks to the corrupt judge Laster in Delaware
he was illegally taken off as CEO and president and
chairman of the Board and denied illegally his rights
as the largest shareholders to elect his representation
and control the company. This criminal decision as it
was “purchased” has allowed the TCV thieves to
effectively buy the Board members that the Plaintiffs
wanted to replace and to control the company with
18% of the shareholding illegally and to wreck the
company to oblivion. Worse the TCV thieves have
manipulated a totally corrupt system, where everything
can be purchased, through the corrupt big law firms

7

Weil Gotschal and Morgan Lewis and made sure to
deny due process to the Plaintiffs in so many ways
that it should be a benchmark case.
He is still a Board member today and is getting
diluted to oblivion thanks to the efforts of the colluded
and corrupt judges.
Generally, due process guarantees the following
(this list is not exhaustive):.
•

Right to a fair and public trial conducted in a
competent manner

•

Right to be present at the trial

•

Right to an impartial jury

•

Right to be heard in one’s own defense

•

Laws must be written so that a reasonable
person can understand what criminal
behavior is

•

Taxes may only be taken for public purposes

•

Property may be taken by the government
only for public purposes

•

Owners of taken property must be fairly
compensated

Thus, in this complaint, Mr. Buhannic seeks a
correction of all the massive due process issues he
has faced and a cancellation of all the decisions that
were based and leveraged on these due process fadings
to reestablish a level of coherence in the system that
has proved to be prone to corruption at all levels and
has denied clearly the constitutional rights of the
Plaintiffs and allowed the thieves at TCV to commit

8

multiple criminal acts without any restraint as the
big corrupt law firms they use “own” the court system.

ARGUMENT
Due Process Issues at the
New York Appeal Court, First Department
Point I. Outright Corruption at the Clerk Office
First, the clerk office deployed all his efforts to
prohibit Mr. Buhannic appeals making it as difficult
as possible. Mr. Buhannic had to come back twentyfive times for his first appeal as the clerks made it
difficult for reasons that make no sense justice wise.
Just a way to create leverage on big law firms and
get compensated by them.
After twenty-four visits to the clerk office I was
complete despite everything invented by the clerk
and I just had to deposit one more document. I had to
take a plane and I sent my intern from NYU law school
an attorney general in his original country Egypt and
nobody at the clerk office knew him. We he came in
he was patiently waiting and suddenly realized that
the Chief Clerk Dan Ramos was going through my
appeal documents with one the chief crooks’ Partner
lawyers of Morgan Lewis, Peter Neger, and this crook
was telling the clerk how to postpone my appeal as
much as possible. At the end he gave him two tickets
for the US open! All this was on tape as the clerk office
is taped but since I have reported this the court has

9

erased the tapes. Destruction of evidence by the Appeal
court!
I did report this illegal activity to Susanna Molinas
Rojas the highest level of the clerk office and Rolando
D. Acosta who runs the Appeal court. Not only I did
not receive any answer to my letter in Appendix B at
App.4a-16a, but no investigation was started in clear
contravention to any management rule I have seen in
multiple organizations over a forty years career.
Worse the only thing they did was to warn Dan
Ramos that he had been caught being corrupted in a
flagrant denial of due process, logic and equity. The
management of the New York appeal court has decided
to protect the employees that are corrupt! A complete
denial of justice. All this is documented in Appendix
A at App.la-3a.
Point II. The Denial of Due Process Through
Unnecessary Endless Presentation Rules
The way the clerk office of the New York Appeal
court is denying due process to pro se litigants is by
inventing on the spot presentation rules all more
unrelated to justice than the other. It is all about
building leverage to extract from big corrupt law firms’
advantages, cash or anything and put anybody non­
contributing, like a pro se litigant, in an awkward
situation and seeing his appeals rejected multiple
times with the costs attached to that. Some of the
craziest rules are having the number of the page over
the total number of pages, etc. These rules are invented
on the spot by unethical clerks. They are changing on
a whim to make sure leverage exist. I was told one
thing and its inverse more than you could imagine by

10

the same or different people among the clerks. In the
case of Dan Ramos as chief clerk he is able to see
through nylon material if an appeal is deficient as he
did for me. A super Zero! This was so impressive! I
was left without voice, against a wall in handcuffs,
crushed by a fat policeman smelling sweat and having
my glasses broken. A clear due process high for the
New York Appeal court. Once again the clerk office is
taped. But the appeal court has erased the tape as it
proves the abuse of power. I was given a summons to
see a judge for (fake) disorderly conduct and strangely
the New York appeal court has dropped the case after
looking at the tapes and erasing them! A complete cor­
ruption scheme protected by the management of the
New York Appeal court instead of reforming the faulty
system. But it is true that in their system foreign pro
se litigants have mostly one right: to shut up.
A pro se office need to be created and a complete
change in approach and clearly documented, simple
guidelines proposed in these times of electronic where
only a file should .be necessary, harrowing costs for
litigants of making endlessly 10 copies to adapt to
the behavior of the day of the clerks. All these are
clear breaches of due process with the intent to put
big corrupt law firms on top for money.
Point III. The Denial of Due Process
Arguments’ Session

in the

Oral

In the only appeal we have been allowed to make,
before the entire system did organize against us fully,
prohibiting us to use our constitutional right to appeal
after we reported the corruption of the chief clerk
Dan Ramos, we were denied gravely due process but
also right to appeal. We were told when we were to

11
present our oral arguments, months before, that we
would have 15 minutes for our oral argument. We were
the only pro se in the room, on more than 30 cases, as
the system is totally rigged against pro se litigant.
This was very important for us as we have been
robbed by the lower court, Justice Friedman, in the
most illegal way of our obvious indemnification rights,
pushing us into pro se. It was already very difficult to
fit our multiple arguments in 15 minutes, and we were
entitled through due process to that time. We were one
of the last cases and we were told minutes into it that
we will have only 6 minutes! It was impossible even
for a senior lawyer to retool the work of days in a decent
format. As pro se even more difficult. We challenged
this with the head judge telling him we needed the
15 minutes as it is our right to have an appeal and be
heard. We were totally ignored in a very demeaning
manner. Don’t believe me there is a tape so it is
accessible. We were cut off by the head judge despite
having been totally unable to make our arguments.
All this is visible on the video at: https://www.youtube.
com/channel/UCNglBKX_jIFJu2LOj-QBOjQ/playlists.
Worse in that session we discovered that the judges
all five of them had not even read the file making the
oral argument completely useless especially with us
being unable to explain out position at all. It was pure
gesturing but not real justice. Hollywood is better at
justice. Another due process issue trademark of the
New York appeal court is the voluntary refusal to
service the litigants. Up to this day we have NEVER
received a single service, or answer to our letters,
from the court on its decisions. As we live in a differ­
ent country it is yet another way for a corrupt system
to prohibit us to appeal on an appeal further and to

12

see the appeal time lapse. This is a clearly developed
on purpose tactical move to avoid being sanctioned
by the U.S. Supreme Court. Worse in our case as we
have been classified as enemy of the appeal court we
cannot get any info on the phone. As soon as our name
is given we are out and cannot get information. We
have therefore to scan the web to get the decisions
even if we guess their content given the corruption of
the court unfortunately.
We were again here refused due process along
our constitutional rights.
Point IV. The Denial of Due Process

by

Refusing

Effectively the Right to Appeal
It is emblematic of the situation at the New York
Appel court, first department that we were refused
thoroughly the right to appeal which is guaranteed by
the constitution. The New York Appeal court is using
two different approaches to prohibit Pro se litigants
to appeal and to give the leg up to the “paying” corrupt
law firms.
First they have enforced a set of presentation
rules, completely outdated in these times of electronic
documentation. They still want paper documents bound
at a very expensive cost in a certain way. Their pre­
sentation rules are changing often just to penalize the
pro se litigants as we experienced to create delays and
false issues. The clerk office, that as we discovered later
was corrupted by Morgan Lewis top partner Peter
Neger, made us come back 25 times despite respecting
every rule that they gave us in writing. In the same
line the New York Appeal court has refused to create

13

a pro se office, an exception these days in line with
their income strategy.
We did file more than five appeals as the decisions
of justice Friedman were becoming totally illegal and
erratic with her growing collusion with the Defend­
ants. None of our appeal has been accepted and all have
been decayed since we demonstrated the corruption
at the clerk office. We have been fundamentally pro­
hibited to exercise our appeal right, “packaged” by
the court in some legal jargon and never serviced for
any of these decisions. This is in clear opposition of due
process but also of our constitutional right of appeal.
But as a foreign litigant pro se we should accept I
guess that our only right is to shut up.
We have put in Appendix A at App.la-3a the
decision we got from the web as we were never
informed or serviced properly for it. We did file by
mail as we were prohibited to be in the clerk office
with no effect. We were systematically refused the
right to appeal despite rules for pro se litigant to be
supported by the court in the NY rule book.
It is again and absolute and unjustifiable denial
of justice and due process.
Point V. The Denial of Due Process
Information to Pro Se Litigants

by

Refusing

The New York Appeal court has created new
grounds in denial of Due process by denying the Plain­
tiffs not only the right to appeal but the right to get
information from the court. The Plaintiffs live in
Switzerland and therefore need to get information on
the web or on the phone. After denouncing the corrup­
tion at the clerk office with Dan Ramos as the chief

14

clerk and the management of the appeal court inform­
ing him, he took measures to retaliate. We are unable
to get any information on the phone.
Worse after the episode, where he called unduly
the cops on us, we cannot enter the building safely
anymore and therefore we are shut out of all normal
services of the court to litigants. But be certain that
the corrupt Morgan Lewis partners have full entry
and access to these services putting us again in a
complete breach of due process, fairness and in a total
denial of justice.
Therefore the balance of treatment between the
two parties breaches due process too. Worse the man­
agement of the court is fully involved and support
this mistreatment of foreign pro se litigants fully and
embrace it. They have never even answered a letter in
3 years despite massive issues in their organization!
As a summary we are prohibited to have any
written information from the court, any information
on the phone and any information by going to the clerk
office.
The summary of the information we were able to
gather from the web is shown in Appendix A at
App.la-3a. It was all collected from the web as there
was never a proper service or information in any way
from any of the New York court in three years,
making it clearly impossible for us living outside the
U.S. to meet deadlines, in a calculated approach by
the courts.
There are no details, no specific information and
we are left guessing about the decisions. A real splen­
did transparency and equality of treatment between

15
parties with the honest but weakest, pro se and for­
eign being treated the worst. Welcome to the New
York justice system!
Point VI. A Systematic Ex-Parte Communication
and Collusion Between the Defendants and
the Appeal Court as Demonstrated by the
Dan Ramos Incident Breaches Due Process
Ex parte communication with one of the parties
is totally prohibited in any justice rule book and in
particular in New York as stated:
Ex parte communications Code of Professional
Responsibility DR 7-110(b) (22 NYCRR 1200.
41 [b]) states: In an adversary proceeding, a
lawyer shall not communicate, or cause
another to communicate, as to the merits of
the cause with a judge or an official before
whom the proceeding is pending, except: 7
1. in the course of official proceedings in the
cause; 2. in writing if the lawyer promptly
delivers a copy of the writing to opposing coun­
sel or to an adverse party who is not repre­
sented by a lawyer; 3. orally upon adequate
notice to opposing counsel or to an adverse
party who is not represented by a lawyer; or
4. as otherwise authorized by law, or by the
Code of Judicial Conduct. The Rules of
Judicial Conduct governing judges prohibit
ex parte communications except, inter alia,
those made “for scheduling or administra­
tive purposes . . . that do not affect a sub­
stantial right of any party” (22 NYCRR 100.3
[B] [6] [a]) Those rules also permit a judge to
confer separately with the parties, with their

16

consent (see 22 NYCRR 100.3[B][6][d]). Send­
ing ex parte letters to a judge explaining a
client’s default and inquiring about proce­
dure to reopen a matter warrants discipline
(see Matter of Abbot, 167 AD2d 617 [3rd
Dept 1990]). A new trial was ordered where
a trial judge improperly considered an ex parte
conversation with the plaintiffs attorney
prior to issuing a supplemental order which
resolved substantive issues in the prior trial
(see Antoci v. Antoci, 113 AD2d 857 [2nd
Dept 1985]). One ethics committee has inter­
preted Code of Professional Responsibility
DR 7-110(b) as requiring equivalent service
on both the court and the adversary, i.e., if a
communication is hand-delivered to a court,
a “cc” by mail to the adversary is not per­
mitted (see Assn of Bar of City of NY Op
1987-6 [1987]).
But they are also prohibited in the federal rule book.
During the entire process the Appeal court and
the Appeal court clerk office has maintained an unau­
thorized ex-parte communication channels with the
two corrupt legal firms Weil Gotschal and Morgan
Lewis.
This ex-parte communication reached its peak
multiple times as confidential information was leaked
to the law firms to advantage them in advance of the
Plaintiffs and when the partner of Morgan Lewis
Peter Neger did explain to Dan Ramos, in the clerk
office front of everybody in a totally prohibited con­
versation, how to delay our appeal from September to
December unduly. We have witnesses to that dis-

17
cussion, but it was also recorded on tape by the Appeal
court system then erased in an amazing case of
destruction of evidence by the court.
A complete parody of justice organized by the
New York Appeal court to support the collusion of
justice Friedman and starve Mr. Buhannic defense
resources by not even allowing him despite being
already pro se to even present his arguments. Don’t
get fooled, all that was organized, through prohibited
ex-parte communications, between the two corrupt
law firms and the Appeal court, as the investigation
of the communication will show, and is standard
business at the New York Appeal court. A shame to
the entire U.S. legal system.
Yet another flagrant due process breach.
Point VII. Non Application of Notice of Removal
/

to Federal Court

In another related case in New York Supreme
court # 659600/2018 we were taken advantage of by
our last lawyer who created 320,0000 USD of fake
invoices between 5 PM and 5:05 PM when we told
him we were severing the link as he was inefficient and
expensive. We have emails and monthly reconcilia­
tion to prove it easily. We did file a solid case with all
the evidence demonstrating to the New York Appeal
court that the file had been removed to federal court
based on the full Diversity of the case properly with
the support of the legal aid society, but also that the
invoices were fake and that the default judgement
obtained by a “Buddy-Buddy” relationship between
the former judge Martin Ritholz lawyer at Shiboleth
and Judge Perry who had no authority as the case

18

was validly removed, but also that the default judge­
ment was faulty as the default was obtained mali­
ciously by not serving the Defendants on purpose in
their home in Switzerland and they were therefore
unaware of this proceeding as the case was fully
removed to Federal court.
In yet another crazy ruling the New York Appeal
court dismissed the appeal again on relationship and
most certainly for money and refused the obvious
notice of removal. The New York Appeal court has
therefore allowed a judge who had no jurisdiction to
take a faulty default judgement against me, as there
was no service any way, but also was removed to
Federal court and to have the appeal court dismiss
the appeal on no basis that their need to protect the
system through outright corruption.
The full diversity is fully documented exhaus­
tively and definitively and represent the archetype
designed by the founding fathers of why diversity ex­
ists given the corruption of the state courts. All this
is presented in Appendix E at App.24a-31a in the
notice of removal which was done for certainty with
the legal aid society at the Federal court, perfectly
and serviced properly. Therefore the court was
aware, and the Plaintiffs were totally aware of the
illegality Judge Perry’s decision. A total breach in
due process.
In Appendix F at App.32a-34a is presented the
order dismissing the appeal in the worst appeal
procedure ever! The judge had no authority as the
case had been moved to the Federal court because of
full diversity. The Judge Perry who was totally cor­
rupt took a default judgement against the Defendants

19

despite a proven absence of service and no jurisdiction
to support his “Buddy to Buddy” relationship with
former judge Martin Ritholz. The Defendants made
aware Judge Perry of the issues, as shown in App.
18a-23a, and he did not even bother to listen to them
despite their criticality as he was hiding behind his
immunity. Judge Perry and the lawyer should be
penalized heavily for inventing the decision, but in
the New York court system anything is possible. The
worst is that the Appeal court in its retribution against
Mr. Buhannic who denounced the corruption at the
court, refused to even handle a case so clear. It is a
complete breach of due process and a denial of his
constitutional_right to appeal. The attitude of the
appeal court and his leaders should be penalized
heavily as breaching every decency rule and the U.S.
constitution.
This is an even worse corruption than the Dan
Ramos one as the case is so clear: no jurisdiction, no
service on the default judgement and the proof that
the lawyer overcharged. But what else do you need
but a “Buddy-Buddy” relationship to exercise corrupt
justice?

REASONS FOR GRANTING THE WRIT
These issues raised in this case are critical to
the effective functioning of the legal system of the
United States. Due process needs to be enforced and
need to be independent from who you are and as a
foreign Pro se litigant you should be entitled to it as
much as a big corrupt law firm working for fees. Today

20

between the corruption, the nepotism and the out­
right bias of numerous levels in the system this is not
guaranteed, and it is critical to the wide public and
the economy that these issues are fixed in the spirit
and law of the U.S. constitution. To no act will dis­
qualify the U.S. legal environment for foreigners
definitively as the bias and corruption was so per­
vasive and organized that foreign entrepreneurs will
select other environments to create the future.
There is nothing more important than to fix a
system that has been selling itself to partisan inter­
ests and is colluding with some of the big law firms
to give them an undue power that is challenging the
most basic rules of Democracy.
This court must use this case where we have
demonstrated an inordinate bias and prejudice as well
as numerous cases of outright corruption, collusion
and numerous dysfunctions of the system that makes
it so faulty that outside of providing a good living to
the people involved, mostly lawyers, it has failed
totally the general public in rendering justice.
This court is facing a choice here: Act quickly
and fairly and demonstrate that all the manipulations
stop at its door and that it represents the last defense
of Democracy, Justice and Due process and reestab­
lish decisions that make sense or just let go and accept
that the system is now controlled by people that can
pay big corrupt law firms to manipulate the process
and become an accomplice of the destruction of the
legal environment created by the founding fathers.
There is no illusion here, inaction or half measures
will not change the flow of history as the system is so
biased the wrong way now, as judges feel they can

21

escape from the law and are writing it, lawyers feel
they can manipulate the system freely, with no con­
sequences. If by outright corruption an Entrepreneur
can be stolen the property that he sacrificed so much
to develop, just because judges and courts have been
coerce into submission by money, influence and if an
entrepreneur/manager can be the victim of blackmail,
fake news, attacks and lose the ownership of his com­
pany despite having the vast majority of the capital
(70%) as in this case because the minority Private
Equity shareholder (15%) can afford with their cus­
tomers money, expensive corrupt law firms to manip­
ulate the corporate life of a company and steal the
value created by the entrepreneur, then nobody will
want to be an entrepreneur. Nobody either will want
to carry the risks attached to performing the fiduci­
ary duties of a Board member any more given this
case. It is essential to maintain a system where con­
tracts that are very clear are applied fully and cannot
be manipulated by law firms playing their cards with
courts going as far as corrupting the clerks and the
judges like Weil Gotchsal and Morgan Lewis demon­
strating a corruption uncommon in the poorest coun­
tries of the universe. It is critical to show that people
with money acquired through outright theft cannot
manipulate the system into submission through big
corrupt law firm and that Pro se litigants have a
chance to make their points if they are right.
Finally as explained in the brief certain acts and
decisions of the Delaware court, New York Supreme
court and New York Appeal court are criminal like
destruction of evidence and outright corruption and
the consequences have to be drawn to show that
justice still exist even if you are a going against all

22

the decisions in Delaware, New York and other State
or Federal decisions on indemnity that want to make
sure, for the benefit of the wide public from pension
fund to individual investors, that indemnification of
Board members is effective in the greater interest of
the creation of economic value and the general progress
of society. These decisions go against the majority of
decisions on this subject of indemnification that are
key to entrepreneurship and the needs of the general
public and threaten the future by creating a breach
into a very well documented jurisprudence. It is essen­
tial for this court to put a stop to the manipulation of
the system by money and greed.
This court is the last hope for justice but also
more importantly to insure that the financing of inno­
vation does not fall definitively in the hands of crooks
equipped with big law firms and a strong pull in the
lower courts where they managed to convert the most
protective indemnity agreement into a useless piece
of paper through collusion, manipulation and out­
right corruption. Worse the lower courts also prohib­
ited the indemnitee to benefit from due process and
his appeal rights protected by the constitution. There
is no mistake here, this is a benchmark case where
the future of innovation financing will be decided
that will impact generations to come. Accepting that
these illogical decisions, going against almost every
case law existing in all jurisdictions, stay in force will
damage definitively the legal environment at a huge
cost to society and will ensure that crooks well equipped
with corrupt lawyers run the show at the expense of
the creators, entrepreneurs and value generator. It is
a seminal case that should be treated by the highest
court in the land to give still hope to honest people

23

that the dream of a better system that started in 1776,
and for which my ancestors died for in Cheasapeake
Bay and Yorktown, there was more French casualties
than American casualties in both cases, still exist in
some heads, even remotely.
“The true administration of justice is the
firmest pillar of good Government”
Georges Washington

CONCLUSION
The total amount of the legal costs carried by
Mr. Buhannic is north of five million USD and the
other side has spent a multiple of that completely
indemnified by the company for the exact same cases
and indemnification agreement, a parody of justice
and due process. It is also important to note that
these amounts were also paid by Mr. Buhannic as he
is the 70% owner of the company that paid these fees
and has been hijacked thanks to due process breaches
by a group of sophisticated thieves leveraging big cor­
rupt law firms.
To sum up, Mr. Buhannic has been denied totally
his U.S. constitutional rights to due process, to appeal
and to fairness by a New York Appeal court system
more interested in denying his rights as a foreigner
and protecting its members form the consequences of
their illegal and anti-constitutional acts than exercis­
ing a fair justice.
These cases that all are interlinked are a flagrant
demonstration of the due process failings of a system

24
that is more interested in protecting itself than achieve
a fair justice. The denial of due process has been so
pervasive, so distributed across so many cases and
judges that it is unfortunately an innate character­
istic of a New York Appeal court system that has gone
awry. These breaches are endangering the entire
system in the U.S. and making it a laughable stock
for other justice systems.
More importantly it makes the U.S. legal .system
the place to avoid for foreigners as it is biased and
owned by expensive and corrupt law firms that own
the process through cushy jobs for judges at the end
of career, outright corruption or collusion. These fail­
ings and manipulations must stop in the interest of
the credibility of the U.S. legal system jto be a major
credible legal system.
The level of corruption the plaintiffs have experi­
enced in New York, both at the supreme court level
and the appeal court level, is unmatched in their 40+
very successful years career all over the world tack­
ling most major legal environments. The level of
collusion between the system and the big law firms is
unmatched. The complete lack of disciplinary power
on judges and lawyers leave a system prone to collu­
sion, payment for verdict and corruption that allows
the people participating to know that they are funda­
mentally unreachable and not responsible front of the
law. They can do whatever they please with a total
disregard for the U.S. constitution and the rights of
the Plaintiffs, especially as Foreigners and pro se. It
is an insult to the U.S. constitution and breaches of
so many of the basic due process rules that it is
impossible to list all of them.

25

For the foregoing reasons Mr. Buhannic respect­
fully requests that this Court grant the relief requested,
based on the U.S. Constitution to reestablish an
environment where due process exist and is not entirely
denied to foreign Pro se litigants as it has been in
this case, declare that these courts have breached
Mr. Buhannic constitutional right to due process and
appeal and to allow him a change in the decisions
based on breach of due process that requested in order
to reestablish a certain level of fairness in the system
and credibility in the process.:
Given the multiple due process breaches and the
systematic refusal to apply the law and the U.S. Con­
stitution, the petition for a writ of certiorari should
be granted.
Respectfully submitted,
Philippe Buhannic
Petitioner Pro Se
Aventura 318
Route des Creux 100
1936 Verbier Switzerland
(917)716-3542
November 9, 2019

